OIG Audit Report 03-28
Federal Bureau of Prisons Annual Financial Statement
Fiscal Year 2002
Report No. 03-28
December 2003
Office of the Inspector General
EXECUTIVE SUMMARY
The Federal Bureau of Prisons (BOP) protects society by confining offenders in the controlled environments of prisons and community-based facilities that are safe, humane, cost-efficient and appropriately secure, and which provide work and other self-improvement opportunities to assist offenders in becoming law-abiding citizens.
Our audit of the financial statements resulted in an unqualified opinion, meaning that the financial statements present fairly, in all material respects, the financial position and results of operation for the entity.  In the Independent Auditors' Report on Internal Controls on Financial Reporting the auditors identified two reportable conditions.  The first reportable condition states that BOP's policies, procedures, and accounting for obligations need improvements. The second reportable condition states that the information security program management and controls need improvement.